"
a
-
,
Department
-.  .          of
                 --
                  -
1 9 9 4 letter from
                      CLOSEOUT FOR M94040014

        This case was brought to OIG o
           Director of the Division of
                    Program Director f
in the division. The proqram
                          - -



subject) of the Department of m
                                  director had received a



                                     a  t
                                                        -~   -



                                            (the complainant) of t x
                                         J at
University. In it, the complainant recounted events that raised
the possibility of misconduct in science by (        t      h      e
                                                         University.
     The complainant had received a telephone call from the proqram


             are listed as co-PIS.)   .   The program director informed
be declined. The complainant asked which scientists the program
had recommended for funding, and the program director named several
successful applicants.    Among these was the subject, who had
submitted a proposal entitled


     Upon hearing this information, the complainant expressed
surprise and concern, stating that the subject was a co-
investigator on his proposal and had not indicated that he was
submitting his own proposal.    In his subsequent letter to the
program officer, the complainant described his prior relationship
with the subject and characterized himself as upuzzledu that the
subject had submitted a competing proposal to develop closely
related equipment without informing the complainant. The program
officer called the subject to ask about the relationship between
these two proposals and the subject told him that they were
technically different.
     The program officer and division director were uncertain
whether the complainant's letter implied an allegation of
misconduct in science and referred the matter to OIG. They noted
that there were technical differences between the two proposals but
were uncertain how material those differences were. They also
pointed out that the proposal recommended for decline was
considerably more costly.     They stated that they were unsure
whether the complainant was alleging that the subject had stolen
ideas from the complainant's proposal draft and, after making minor
modifications, submitted a proposal derived from the complainant's
work that did not give that work due credit.
                            Page 1 of 2                          M94-14
                      CLOSEOUT FOR M94040014

     OIG called the complainant to determine whether he was
alleging misconduct in science. The complainant responded that he
was not. The complainant stated that he had discussed their common
research interests with the subject and explained that in his view
the subject's work was original, did not derive from the
complainant's proposal, and, although it built on scientific
contributions in this area that the complainant had made a decade
earlier, took this work in substantially different and technically
innovative directions.     OIG examined the two proposals and
confirmed that they were different in ways the complainant had
identified and that appeared to be substantial.
     When OIG received the original information about this case, we
informed the program officer that it was against NSF policy to let
scientists know the status of other applicants' proposals and that
only the information that an award had in fact been made was
publicly available. We noted that program recommendations do not
necessarily lead to awards and that no useful purpose is served by
informing competing scientists about those recommendations.
     There is no allegation of misconduct here and no evidence of
misconduct. This case is closed and no further action will be
taken.
cc:   Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




                           Page 2 of 2
